<html>
<title> - INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION'S 2019 HIGH-RISK LIST</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


 INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION'S 2019 HIGH-RISK LIST

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                               AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                             APRIL 3, 2019
                               __________

                           Serial No. 116-013
                               __________

      Printed for the use of the Committee on Oversight and Reform
      

                   [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]     


        Available via the World Wide Web: http://www.govinfo.gov
                     http://www.house.oversight.gov
                       http://www.docs.house.gov

                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
36-622 PDF                WASHINGTON : 2019 


                   COMMITTEE ON OVERSIGHT AND REFORM

                 ELIJAH E. CUMMINGS, Maryland, Chairman

Carolyn B. Maloney, New York         Jim Jordan, Ohio, Ranking Minority 
Eleanor Holmes Norton, District of       Member
    Columbia                         Justin Amash, Michigan
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Katie Hill, California               Michael Cloud, Texas
Debbie Wasserman Schultz, Florida    Bob Gibbs, Ohio
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Chip Roy, Texas
Robin L. Kelly, Illinois             Carol D. Miller, West Virginia
Mark DeSaulnier, California          Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Kelly Armstrong, North Dakota
Stacey E. Plaskett, Virgin Islands   W. Gregory Steube, Florida
Ro Khanna, California
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
                Dan Rebnord, Subcommittee Staff Director
                          Amy Stratton, Clerk

               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051

                   Subcommittee on National Security

               Stephen F. Lynch, Massachusetts, Chairman
Jim Cooper, Tennesse                 Jody Hice, Georgia, Ranking 
Peter Welch, Vermont                     Minority Member
Harley Rouda, California             Justin Amash, Michigan
Debbie Wasserman Schultz, Florida    Paul Gosar, Arizona
Robin Kelly, Illinois                Virginia Foxx, North Carolina
Mark DeSaulnier, California          Mark Meadows, North Carolina
Stacey Plaskett, Virgin Islands      Michael Cloud, Texas
Brenda Lawrence, Michigan            Mark Green, Tennessee



                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on April 3, 2019....................................     1

                               Witnesses

The Honorable John F. Sopko, Special Inspector General for 
  Afghanistan Reconstruction
    Oral statement...............................................     6

Written opening statements and the witness' written statement are 
  available at the U.S. House of Representatives Repository: 
  https://docs.house.gov.

                           Index of Documents

The documents entered into the record during this hearing are 
  listed below are available at: https://docs.house.gov.

* Cost Benefit Analysis of Uniform Specifications for Afghan 
  National Defense and Security Forces camouflage uniforms; 
  submitted by Rep. Lynch.

* U.S. Based Training for Afghanistan Security Personnel: 
  Trainees Who Go Absent Without Leave Hurt Readiness; submitted


 
INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION'S 2019 HIGH-RISK LIST

                              ----------                              


                        Wednesday, April 3, 2019

                   House of Representatives
                  Subcommittee on National Security
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 2:29 p.m., in 
room 2154, Rayburn House Office Building, Hon. Stephen F. Lynch 
(chairman of the subcommittee) presiding.
    Present: Representatives Lynch, Welch, Rouda, Kelly, 
DeSaulnier, Hice, Amash, Gosar, Cloud, Green, and Jordan. Also 
present: Representative Massie.
    Mr. Lynch. Good afternoon. We'll come to order. Without 
objection, the chair is authorized to consider a recess at any 
time.
    This is the first hearing of the Subcommittee on National 
Security to examine the Special Inspector General for Afghan 
Reconstruction's High-Risk List of major construction programs 
in east Afghanistan that are at risk for waste, fraud, and 
abuse. I will now recognize myself to give an opening 
statement.
    Good afternoon, everyone. I want to welcome all the new 
members to the committee. And especially I want to personally 
welcome and congratulate my friend, the gentleman from Georgia, 
Mr. Hice, who joins me as the ranking member on this 
subcommittee. Congratulations or condolences, I'm not sure 
which it is.
    Back in 1947, Senate Foreign Relations Committee Chairman 
Arthur Vandenberg, in calling for bipartisanship on the issue 
of national security, asserted on the Senate floor that, quote, 
``Politics stops at the water's edge,'' close quote.
    Today, more than 70 years later, the international security 
environment is more complex and dangerous than ever. States 
with hegemonic aspirations, such as China, Russia, and Iran, 
all threaten to undermine the representative democracy and the 
international order that the United States has supported since 
World War II. Terrorist organizations, such as ISIS and al-
Qaida, although significantly degraded, continue to threaten 
the United States homeland and our international neighbors. And 
there are also new and emerging challenges, such as the 
proliferation of cyber threats and capabilities that could 
discredit and undermine U.S. national political, economic, and 
human rights issues.
    Although the Constitution grants the executive branch with 
the authority to implement the foreign policy of the United 
States, Congress has also been given a solemn responsibility to 
provide oversight. In today's increasingly complicated 
international security environment, Congress cannot afford to 
sacrifice our oversight responsibilities in some vague hope 
that by doing so, we might be able to get along better with the 
White House. We have our jobs to do.
    As we enter the 116th Congress, I hope all of us on the 
subcommittee will commit to working together across the aisle 
to do what is best for the safety and security of the American 
people.
    In that spirit, I am pleased to inform the ranking member 
that, at his request, we have scheduled May 8 as a potential 
day to convene our next hearing on the suicide epidemic that is 
plaguing our Nation's veterans and active military.
    During his first Cabinet meeting of 2019, President Trump 
raised the very topic that we'll examine today: public 
inspector general reports on critical areas of U.S. military 
operations including Afghanistan. According to the President, 
government military watchdog reports should be, quote, 
``private and locked up,'' close quote, and their release to 
the American public is, quote, ``insane,'' close quote. He also 
cautioned Acting Defense Secretary Patrick Shanahan not to let 
that happen again.
    America's long and strong tradition of robust and 
responsible congressional oversight flatly rejects the Trump 
administration position on this point. In fact, congressional 
oversight has a long history of providing tangible real-world 
benefits for our warfighters serving on the front lines.
    For example, in the mid-2000's, when I was a member of this 
committee, then Secretary of Defense Donald Rumsfeld had 
repeatedly refused to acknowledge that an insurgency was 
emerging in Iraq.
    It was only after members of this subcommittee and others 
meeting with American servicemembers on the front lines in 
Iraq, and with the help of Stuart Bowen, the Special Inspector 
General for Iraq Reconstruction, that Members of Congress from 
this committee and elsewhere were fully and appropriately 
informed about the potential risk to American servicemembers, 
and as a result, were able to take action to provide our sons 
and daughters with armored up Humvees and mine resistant ambush 
protected vehicles, or MRAPs, to protect them from IEDs, and to 
also fund the development and employment of detection and 
counter-IED technologies.
    Similarly, in 2007 Congressman John Tierney, my predecessor 
from my home state of Massachusetts, opened an investigation 
when wounded soldiers at Walter Reed Medical Center returning 
from Iraq and Afghanistan, many of whom had lost limbs or 
suffered traumatic brain injuries, reported being quartered for 
months in moldy and rodent-infested rooms with inadequate 
followup care. We held hearings, this subcommittee did, at 
Walter Reed until the situation was corrected.
    In another example, the U.S. Army in 2007 awarded a $300 
million contract to supply ammunition to the Afghan Security 
Forces to AEY, Inc., a company owned by an inexperienced 21-
year-old.
    After reviewing more than 26,000 pages of documents from 
AEY, the Department of State, and the Department of Defense, as 
well as interviewing U.S. Army, Department of State, and 
Department of Defense contracting officials, and after multiple 
trips to Afghanistan by members of this committee, this 
committee determined that more than $66 million in taxpayer 
dollars were paid to a contractor who provided unserviceable 
munitions, much of it Vietnam era weaponry and some of illegal 
Chinese origin.
    Three years later, this committee opened a 6-month 
investigation into the circumstances surrounding the Department 
of Defense's outsourcing of security for vital U.S. supplies in 
Afghanistan to questionable trucking companies and providers, 
which revealed a vast protection racket run by a shadowy 
network of warlords, strongmen, commanders, and corrupt Afghan 
officials. Not only did the system run afoul of the 
Department's own rules, it also risked undermining the U.S. 
strategy for achieving our goals in Afghanistan.
    So today, after more than 18 years of war in Afghanistan, 
more than 2,400 American servicemen have made the ultimate 
sacrifice in support of Operation Enduring Freedom and 
Operation Freedom's Sentinel. More than 14,000 U.S. troops are 
still deployed in the region. To date, the U.S. has allocated 
more than $750 billion in taxpayer funds to pay for the war in 
Afghanistan. That's in addition to the $132 billion contributed 
toward efforts to secure and stabilize the country.
    The American people deserve to remain informed on the 
progress or lack of progress of our military and reconstruction 
efforts in Afghanistan. They have every right to know whether 
our sons and daughters in uniform are well deployed and well 
equipped and whether taxpayer money is being well spent. The 
Department of Defense must also continue to permit 
congressional travel to the region, and especially to those 
locations where American servicemen are deployed, to facilitate 
our oversight efforts.
    In addition, the oversight reports issued by the Special 
Inspector General that we discuss today since 2008 have served 
to identify for the public and Congress those projects that 
have been subject to significant waste, fraud, and abuse. 
Today, we'll be examining Inspector General Sopko's recent 2019 
High-Risk List of reconstruction areas that are especially 
vulnerable to waste, fraud, abuse, and mission failure.
    This report is extremely timely in light of the continuing 
peace negotiations led by the Special Representative for 
Afghanistan and Reconciliation Ambassador Zalmay Khalilzad. In 
anticipation of a potential peace agreement that could result 
in a large-scale withdrawal of U.S. personnel and the 
reintegration of the Taliban into the Afghan Government, the 
report examines the sustainability of U.S.-funded 
reconstruction programs in a post-reconciliation Afghanistan.
    I'd like to again thank Inspector General Sopko for helping 
this committee with its work.
    I now yield five minutes to our distinguished ranking 
member, the gentleman from Georgia, Mr. Hice, for his opening 
statement.
    Mr. Hice. Thank you very much, Chairman Lynch. I want to 
thank you for calling this important hearing and congratulate 
you for your role as chairman of this committee. I thank you 
for working with us and your staff with our staff, and I really 
look forward to working with you in the remainder of this 
Congress on a variety of issues.
    Mr. Sopko, thank you as well for being here today and for 
testifying about the work that you and your team are doing to 
protect the enormous investment that the American taxpayers 
have made in Afghanistan. I'm excited to get to work on this 
issue and many others that this subcommittee will deal with on 
behalf of the American people.
    As the chairman mentioned, it's been almost 18 years since 
the U.S. began its efforts in Afghanistan, making it the 
longest war in American history. Young adults back in Georgia 
and elsewhere who were born after 9/11 can actually be serving 
in Afghanistan at this time. We've been through three 
Presidents. More than $780 billion has been obligated, with 
$132 billion being spent on reconstruction efforts.
    While the effort has been expensive, we must also never 
forget that we've endured the loss of over 2,400 Americans in 
uniform during this time, not to mention civilian casualties. 
There have been more than 20,400 who have been wounded in 
action. Just this year, four Americans died serving their 
country. I think we ought to keep all of them and their 
families in our prayers.
    So, Mr. Sopko, as I understand it, it's your responsibility 
to protect the financial investment of the American people in 
Afghanistan. It's important today that we discuss your new 
High-Risk List report. This report, which you release at the 
beginning of each new Congress, helps set the scene for how 
taxpayer money is being spent. The most recent report, 
unfortunately, paints a bleak picture of the progress even 
through the new prism of the current peace negotiations.
    In your submitted testimony, you mention the importance of 
planning for the day after a peace deal is reached. The current 
talks could be an important moment in securing future peace in 
Afghanistan on favorable terms for the United States and for 
the Afghan people. We all recognize that a deal could be 
reached and that any deal would have implications in how we 
move forward.
    But today we need some updates. We need to better 
understand the current status of the U.S. dollars being spent 
there. The American people sent us here to protect their hard-
earned tax dollars and to ensure that this operation is being 
conducted as efficiently as possible.
    Your 2019 High-Risk List highlights several troubling 
issues that I'd like to spell out here.
    First, the widespread security and its impact on conducting 
reconstruction efforts, including restricting oversight, is 
very disturbing. I'm concerned that our efforts to conduct 
oversight and improve security are headed in the wrong 
direction, and that is alarming not only for us in this 
subcommittee, but for the American taxpayer. So I hope we can 
hear more about what has happened to hamper that important 
mission and what should be done to address it.
    Additionally, there's the illicit narcotic trade and 
endemic corruption that does not at all seem to be improving. 
Both of those things have likely led to the sluggish economic 
growth and underdeveloped civil policing, both of which made 
the list.
    For Afghanistan to be successful, we must see these things 
improve. After 18 years in the region, it seems we should be 
making greater strides in these areas.
    Through the lens of the peace negotiations, you've included 
in the list the risk to women's rights and the reintegration of 
Taliban fighters. I'm very much curious where it stands and how 
that reintegration will take place. These are extremely 
important issues, and I'm especially glad that you included 
them in the list, and probably they will be on the next list to 
come as well.
    Finally, the last time that I spoke to you in a hearing we 
dealt with those in the United States who have gone AWOL on the 
taxpayers' tabs, and we need to hear an update on that today on 
this troubling issue.
    So I want to thank you very much for appearing before the 
subcommittee today. I look forward to your testimony.
    And, Mr. Chairman, I thank you for holding this hearing and 
look forward to more bipartisan hearings. I thank you already 
for the announcement you've made for the one concerning 
military suicides on May 8. I appreciate that.
    And I yield back.
    Mr. Lynch. The gentleman yields back.
    Just a little bit of a housekeeping matter here. I would 
like to get unanimous consent to enter the cost-benefit 
analysis of uniform specifications for Afghan National Defense 
and Security Forces camouflage uniforms into the record.
    Are there any objections?
    Hearing none, so ordered.
    Today we'll hear from Special Inspector General for 
Afghanistan Reconstruction John F. Sopko, who was sworn in on 
July 2, 2012. Mr. Sopko was appointed to the post by President 
Obama. He has more than 30 years of experience in oversight and 
investigations as a prosecutor, congressional counsel, and 
senior Federal Government adviser.
    Mr. Sopko's government experience includes over 20 years on 
Capitol Hill where he has held key positions in both the Senate 
and House of Representatives. He served on the staffs of the 
House Committee on Energy and Commerce, the Select Committee on 
Homeland Security, and the Senate Permanent Subcommittee on 
Investigations.
    We are grateful to hear from you and your considerable 
expertise, Mr. Sopko.
    If the witness would please rise, I'll begin by swearing 
you in. Please raise your right hand.
    Do you swear or affirm that the testimony you're about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Mr. Sopko. I do.
    Mr. Lynch. Let the record show that the witness answered in 
the affirmative.
    Thank you, please, and be seated. The microphones are a bit 
sensitive, so please speak directly into them. Without 
objection, you written statement will be made part of the 
record.
    With that, Mr. Sopko, you are now recognized for five 
minutes to give an oral presentation of your testimony.

  STATEMENT OF THE HONORABLE JOHN F. SOPKO, SPECIAL INSPECTOR 
             GENERAL FOR AFGHANISTAN RECONSTRUCTION

    Mr. Sopko. Thank you very much, Chairman Lynch, Ranking 
Member Hice. Thank you for inviting me today. I'm honored and 
pleased to be here to discuss our High-Risk List.
    Thank you also to the various Members who are attending, 
some who are old colleagues I've seen before, and I hopefully 
will answer the questions better this time than I did the last 
time you asked them.
    This report, as both the chairman and ranking member have 
indicated, identifies eight key areas of the $132 billion 
reconstruction effort that we believe are at high risk of 
waste, fraud, abuse, mismanagement, and most importantly, 
mission failure.
    Today's report differs from its two predecessors which we 
have issued because it is issued in the midst of the ongoing 
U.S. negotiations with the Taliban that could lead to the end 
of America's longest war, something which I think all of us 
support. As a result, the High-Risk List addresses not only 
current risks to the reconstruction effort, but also those that 
may persist or arise in the wake of any peace agreement or even 
risk the ultimate success of any lasting peace agreement.
    Now, SIGAR is not taking a position on whether a peace 
agreement is achievable, imminent, or even practical, although 
we hope all three are true. Nor do we speculate on what 
provisions it should include. Those decisions we leave to the 
administration, to Congress, and to our able negotiators. But 
what today's report does do is highlight areas that are 
currently at serious risk and points out risks that may 
persist, be magnified, or emerge despite or even because of a 
peace deal.
    Policymakers, we urge, should be planning for what may come 
in the days, weeks, months, and years after any peace agreement 
is reached because, as we all recognize, failure to plan is 
planning to fail. Every effort must be taken to ensure that the 
progress purchased with the ultimate sacrifice made by over 
2,400 U.S. soldiers and over $780 billion is not lost because 
we failed to adequately plan for the day after a peace 
agreement is signed.
    As for one of the most serious risks we highlight, I will 
not mince words with this subcommittee. The Afghan Government 
simply cannot survive without financial assistance from the 
U.S. and other nations. And should peace come, if that peace is 
to be sustainable, financial supports from donors will continue 
to be required for years to come.
    Beyond the perilous state of Afghanistan's finances, the 
risks we identify in our report are widespread insecurity and 
underdeveloped civil policing capability, endemic corruption, 
the massive illegal narcotics trade, threats to women's rights, 
the reintegration of ex-combatants, and restricted U.S. 
Government oversight.
    It is that last risk area that I think this committee, with 
your jurisdiction and expertise, should be of the greatest 
concern, especially in light of the potential that more U.S. 
funds will go directly to the Afghan Government as on-budget 
assistance or through multilateral trust funds.
    Additionally, some of our major work that's ongoing in 
Afghanistan, such as our joint investigation with CSTC-A into 
ghost workers whose salaries we currently pay who don't exist 
and who in all probability, even after a peace deal, we will 
still have to pay those salaries; as well as a joint 
investigation, again with CSTC-A, into the massive, and I'm 
talking about billions of dollars, theft of fuel which we pay 
for now, which in all likelihood we will continue to pay for if 
a peace deal is signed; as well as our investigation into one 
of the major corruption scandals dealing with the public 
utility DABS in Afghanistan, all of those may be seriously 
impaired if our ability to conduct oversight is diminished or 
limited.
    Therefore, it is critical that Congress not just think 
about how much money is provided to Afghanistan if you decide 
to do so, but how it is provided and what kind of oversight is 
available to protect the U.S. taxpayer dollars in those 
instances.
    Thank you very much, Mr. Chairman, Ranking Member Hice. I'm 
now happy to answer any questions you have.
    Mr. Lynch. Thank you for your testimony.
    I ask unanimous consent that the gentleman from Kentucky, 
Mr. Massie, a member of the full committee, be permitted to 
join the subcommittee on the dais and be recognized for 
questioning the witness.
    Without objection, so ordered.
    I now recognize myself for five minutes for questioning.
    Inspector General Sopko, in 2017 your office reported to 
Congress that the Department of Defense had implemented a new 
policy to retroactively classify or otherwise restrict the 
release of information pertaining to the readiness of the 
Afghan National Defense and Security Forces. This information 
had been included previously in your reports each and every 
year. It included important performance measures, such as 
casualties among the defense forces of Afghanistan, attrition 
rates, personnel strength, the ability to recruit new members 
into the Afghan National Defense and Security Forces, equipment 
readiness. All of that information had been included in 
SIGAR's, your office's, public quarterly reports for years.
    Inspector General Sopko, DOD justified this policy by 
stating that it had classified this data at the request of the 
Afghan Government. Is that correct?
    Mr. Sopko. That is correct, sir.
    Mr. Lynch. Okay. So this is U.S. money that is funding this 
effort, and we've talked about somewhere in the area of $800 
billion since day one. It's been 18 years. We've lost 2,400 
people here. And the United States taxpayer has funded all of 
that. Yet, when we ask for data to report on how our troops are 
equipped and how this effort is going, we're being denied 
information.
    So why do you think the Afghan Government is interested in 
keeping previously public information on the performance of its 
security forces a secret?
    Mr. Sopko. I don't actually know. They've never explained 
it to us.
    Mr. Lynch. Microphone. I'm sorry.
    Mr. Sopko. I'm terribly sorry.
    I don't know actually know. They've never explained to us, 
nor have they explained, I believe, to even the RS commander. I 
think it may just be embarrassment.
    Mr. Lynch. So this is a change from the practice of DOD 
under President Bush, under President Obama, up until this 
policy change in 2017. Is that correct?
    Mr. Sopko. The first request, I believe, came in under 
President Obama, but then it was reversed after, I believe, we 
highlighted our concerns, and I believe some Members of 
Congress did, and that was reversed.
    But our military felt obligated when it was raised again by 
President Ghani's staff and their national security advisor to 
respect that request because the data was coming from the 
Afghan Government that we were reporting.
    Mr. Lynch. So that information that we're talking about, 
troop strength in the Afghan National Army, the ability to get 
new recruits, the rate at which Afghans are leaving the Afghan 
National Army and defense forces, all of that, casualty rates, 
how many are being killed in battles with the Taliban, all that 
information is very, very important to our strategy, would it 
not?
    Mr. Sopko. That is correct, and it would be important to 
Congress to understand how well a job we're doing.
    Mr. Lynch. Right. And by classifying that, even though 
Members can go to the SCIF and read that information, they're 
not allowed to discuss it with the public. Is that your 
understanding?
    Mr. Sopko. That is correct. The classification rules would 
apply.
    There's also a further complication, and that is some of 
the classification we're applying--or not we, but our 
military's applying what they call NATO classification. You may 
talk to your staff, and I know, Mr. Chairman, you had this 
problem yourself, that unfortunately your security office does 
not let your staff, unless they go through a special process of 
getting NATO cleared, to even review that.
    If you recall the last time I briefed you, and I know I've 
briefed other Members, and their staff had to be excluded 
because they weren't quote, unquote, ``NATO cleared'' to read 
the material.
    Mr. Lynch. Right. In closing, I have a few seconds left 
here, do you agree that the American people have a right to 
know about the progress of their investment in the Afghan 
National Security Forces?
    Mr. Sopko. Absolutely, sir. I totally believe transparency 
is the best policy for everybody. Think I'm not the first one 
to say that. A number of people have said going back to the 
times of George Washington and the Constitution.
    Mr. Lynch. Okay. Thank you.
    I yield and recognize the ranking member for five minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    Based on the discussion we had earlier, you mentioned that 
36 out of 1,900 Afghan trainees who are being trained here in 
the United States, that 36 of them have claimed asylum. Are we 
still paying those individuals who have no intent to return to 
Afghanistan?
    Mr. Sopko. Ranking Member Hice, I can't tell you for sure 
because the data we got from DHS, Department of Homeland 
Security, was so inadequate we couldn't tell, but in all 
likelihood, they are.
    And if I could say, sir, we invoked your name to finally 
get that information from the Department of Homeland Security. 
So we mentioned--and we had been waiting for over nine months 
to get the data. The data we got is totally inadequate, but it 
does indicate that some of the people we have brought over to 
train them to fly helicopters, et cetera, have asked for 
asylum. And in all likelihood, we still are paying for them to 
be trained here.
    Mr. Hice. Do we have any idea, do you have any idea how 
much it costs to train one of these individuals?
    Mr. Sopko. I do not have that specific number.
    Mr. Hice. Is there any way to get that information?
    Mr. Sopko. Well, the difficulty is each training program 
costs separately, and since DHS won't identify the individuals, 
it's hard for us to say: Is he in the mechanics program? Was he 
in the air program? Is he a C-130 pilot? Et cetera. So that's 
the problem.
    Mr. Hice. I think this a lot of the accountability that we 
need for us to do oversight. I mean, are these people getting 
paid? How much are they getting paid? If there's any way to get 
that information.
    Also, in addition to those who are over here, 36 who have 
claimed asylum, there is a quite a number who have gone AWOL 
once they've gotten over here, and we've discussed this before. 
Eighty-three of them are still missing somewhere, who knows 
where. Do we have evidence that Afghan forces are still going 
AWOL and disappearing somewhere in the United States?
    Mr. Sopko. That is our best information, sir, but we don't 
have any more up-to-date information.
    Mr. Hice. It's our best information that it is still 
happening?
    Mr. Sopko. Yes, it is.
    Mr. Hice. Okay. I find that amazing, that we are continuing 
a program that has a much larger percentage of people going 
AWOL, and we've got to get to the bottom of this. I thank you 
for invoking my name today. We're going to continue pushing on 
this issue.
    Let me hit a couple of other things real quickly. You 
mentioned that we've had 24--we know 2,400 military deaths, but 
that does not include contractors and civilian deaths. Do you 
have any idea how many of those deaths we've seen?
    Mr. Sopko. Yes, I do, and I'm glad you highlight that point 
because I think we tend to forget the U.S. contractors and how 
many casualties they have, because they are important parts of 
the team. Our best estimate is over 4,000 U.S. contractors have 
died in Afghanistan.
    Mr. Hice. So 2,400 military and 4,000-plus contractors and 
civilians?
    Mr. Sopko. That is correct. In addition, we know a minimum 
of 14 U.S. Government civilian personnel. If you go to 
Afghanistan, and I know you've been there, sir, and I know 
Chairman Lynch, right in front of our embassy are 14 plaques.
    Mr. Hice. Right.
    Mr. Sopko. Yes. They list the U.S. civilian government 
employees but not all by name, but there are quite a few. And 
this goes back to our former Ambassador who was assassinated 
there. Excuse me.
    Mr. Hice. Thank you.
    Okay. You mentioned in the High-Risk List, and this really 
concerns me, I wish we had more than five minutes with all this 
stuff, but we've got approximately 60,000 Taliban fighters who 
need to be reintegrated back in Afghan society. I find this 
farfetched. I can't wrap my head around how this is even 
possible. Do you have a comment on that?
    Mr. Sopko. What we highlight is a risk. I mean, you're 
absolutely correct. We've got approximately 60,000 trained 
killers. They're Taliban. They've been doing this for years. 
You've got them and their family.
    Now, for peace to--and we all want peace to occur, but for 
peace to occur, every expert--and we're actually doing a larger 
lessons-learned study like these we've already done on other 
issues on reintegration--it's extremely difficult. It has to be 
done.
    So how are you going to reintegrate 60,000 trained killers 
into an Afghan economy that can't even support the thousands of 
young men and women in Afghanistan who are coming of age 
because of the economy?
    So it's difficult. We're not saying it's impossible. Again, 
this is a policy decision. That's not my job. We're just 
highlighting for you when you think of appropriations, when you 
think of oversight, think in terms of--and when somebody comes 
up here to testify about the peace deal, what are you doing 
about reintegration? Because if you don't reintegrate, and they 
don't get jobs, if they don't get their land or whatever, 
you're going to have some angry highly trained people who would 
love to destroy the peace deal.
    Mr. Hice. I share your concern. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Lynch. The gentleman yields back.
    The chair now recognizes the gentleman from Vermont, Mr. 
Welch, for five minutes.
    Mr. Welch. Thank you. First of all, congratulations, Mr. 
Chairman. It's delightful to have you serving as our chair with 
your long experience on this committee. I look forward to 
working with Mr. Hice, too.
    Your openings remarks, by the way, did remind me of how 
much we owe SIGAR for the work you've done consistently and 
well. You've got a great team. You and your predecessors have 
done a tremendous job.
    You outlined some of the things, Mr. Chairman, where we 
actually made a difference not just for taxpayers, but 
probably, most importantly, for some of our men and women who 
served us well.
    I want to just ask some questions about restrictions on 
your oversight, some of them practical, and I want you to 
comment on that, because I think it's really important that we 
back up your office and the steps and the resources it needs in 
order to inform Congress.
    Can you just walk us through how the security situation is 
having an immediate impact on your ability to provide Congress 
with the information that we seek?
    Mr. Sopko. Well, it's a dangerous place, and obviously I 
don't want to risk my staff needlessly, nor does the State 
Department or DOD. So we have to rely on them to provide 
security to my investigators and my auditors.
    I think I may have pointed out to one of the Members, just 
to give you a feel, I can't remember the page, there's a 
picture of me--I'm sorry, page six? Okay.
    If you want to see, this is what your typical detail looks 
like. There's 30 or 40 security people just for our staff to go 
out to the Marshal Fahim Center.
    Mr. Welch. Well, I would say you're worth it.
    Mr. Sopko. Well, my wife does, too.
    Mr. Welch. It's a practical challenge. That's really what 
that says. I mean, you just can't send a couple of staffers 
over there and then in support to get 40 people each to provide 
security for them when they go out to where the projects are, 
right?
    So practically speaking, do you have confidence that you're 
able basically with your best efforts to assess how much we are 
wasting?
    Mr. Sopko. I wish I had more visibility. What we have done 
is tried to overcome that by using more sophisticated 
technology, some of which I cannot describe in public. We also 
have partnered with an Afghan civilian organization which we 
trained and mentored, and they give us an extension to our 
visibility.
    So even at that site, we're limited in how much time we can 
go there, but we can send the Afghan engineers who we train to 
take a look, so we try to do it.
    Am I happy? Is it as good as I would like? No.
    Mr. Welch. Let me just elaborate on that. If there is a 
withdrawal, presumably local actors would have to take over 
lots of functions. But one of those functions hopefully would 
be assessing whether we're wasting money. There's no, my 
understanding is, there's no Afghan organization that we either 
trust or is competent to do oversight on the money that we're 
sending over there for reconstruction.
    Mr. Sopko. You're right, sir. We trust our Afghan trained 
staff, but they're limited, and they can't get everywhere in 
the country themselves. There are places that even Afghans 
can't get to because of the Taliban.
    There are also bases they can't get on because--for 
example, it's very difficult for them to get on Afghan military 
bases because they don't trust the Afghan military, and the 
military demands certain remuneration and certain things that 
we will not permit. So there is a limitation.
    Mr. Welch. So if there is a withdrawal, and aid is then 
funneled fundamental through international organizations so 
that it's not direct payments from us but it's payments to 
organizations that then distribute it, what is the mechanism by 
which we have any confidence that the money is being spent on 
the intended purposes?
    Mr. Sopko. We rely on the international organizations, such 
as the World Bank, Asian Development Bank, and the United 
Nations, to perform that function that USAID would normally do 
or we would do. We have raised concerns about them because they 
don't have very good internal controls. We've done two audits 
on the Afghan Reconstruction Trust Fund where billions of 
dollars go to the Afghan Government. It's run by the World 
Bank. It's improved, but we still have serious concerns.
    But, Congressman Welch, what you're highlighting, and this 
is the other issue that I think we can't lose sight of, and 
that is we can't wash our hands of the taxpayers' dollars just 
because we give it to the World Bank. We have to hold their 
feet to the fire, too, that they're doing the right type of 
oversight.
    Mr. Welch. Thank you. I yield back.
    Chairman Cummings. The gentleman yields back.
    The chair now recognizes the gentleman from Michigan, Mr. 
Amash, for five minutes.
    Mr. Amash. Thank you, Mr. Chairman.
    Mr. Sopko, thank you for your work and for being here 
today.
    Since the war in Afghanistan began in 2001, and again, it's 
the longest war in U.S. history, the United States has spent 
nearly $800 billion--I think you mentioned $780 billion, was 
your figure--on the war, including over $100 billion 
appropriated for reconstruction activities.
    In 2017, our colleague and my good friend, the late Rep 
Walter Jones, requested information from SIGAR about the total 
amount of waste, fraud, and abuse SIGAR has uncovered. SIGAR 
identified up to $15.5 billion in waste, fraud, and abuse and 
failed whole-of-government reconstruction efforts, 29 percent 
of the $52.7 billion in spending it reviewed.
    How much money is still being lost to waste, fraud, and 
abuse and failed whole-of-government reconstruction efforts?
    Mr. Sopko. Well, as you know, it took us a while to do that 
study for the Members who requested it, and it's very 
difficult.
    I can't give you that number. It's billions. Just recently, 
I was told by a senior U.S. Government military official that 
over 50 percent of the fuel we are buying for the Afghans never 
reaches its intended purpose. Now, we're talking billions. But 
I haven't documented it.
    As you know from that report, we were very careful in 
documenting based upon what we have actually looked at, and 
that's where we came up with that number.
    Mr. Amash. So it's your impression that it's billions on an 
ongoing basis.
    Mr. Sopko. Yes.
    Mr. Amash. It continues to be annually----
    Mr. Sopko. Yes.
    Mr. Amash [continuing]. billions of dollars.
    Mr. Sopko. Yes.
    Mr. Amash. Wow.
    According to the Department of Defense, corruption in 
Afghanistan remains the top strategic threat to the legitimacy 
and success of the Afghan Government. Your office has stated 
that, quote, ``Failure to effectively address systemic 
corruption means U.S. reconstruction programs at best will 
continue to be subverted, and at worst, will fail,'' end quote.
    What role does corruption play in the failure of U.S. 
reconstruction efforts in Afghanistan?
    Mr. Sopko. The most obvious is that money we're directing 
toward it gets diverted to somebody's pocket and it buys 
property in Dubai or northern Virginia. But the more sinister 
part is that a corrupt official is identified with us, and in 
the eyes of the Afghans we're viewed as evil and as bad as he 
is or she is.
    You may wonder why is the Taliban over all of these years 
able to survive. In part is it's feeding on this frustration 
and lack of support for the Afghan Government because they see 
these corrupt officials, corrupt military, et cetera. So that's 
the two-edged sword or the prongs of the problem of corruption.
    Mr. Amash. What steps are the U.S., its coalition partners, 
and the Afghan Government currently taking to eradicate the 
culture of corruption?
    Mr. Sopko. Well, the Afghan Government promised at Brussels 
to establish an anti-corruption strategy and to implement it. 
Congress has asked us to look at that. It was in the last three 
appropriations bills. We looked at it and said, well, they 
issued a good policy. It has some problems. But now they hadn't 
had--it was late, so they haven't really implemented it.
    So this year, on behalf of yourself in Congress, it was in 
the appropriations bill, we're looking at its implementation. I 
can't tell you the results yet because we're not done, but it's 
mixed, to say the least.
    Mr. Amash. Given the issues with corruption, should the 
U.S. continue to make additional reconstruction investments?
    Mr. Sopko. Should they?
    Mr. Amash. Yes.
    Mr. Sopko. Well, that's a policy call, and, Congressman, 
I'm going to have to beg off on that. If you decide it's 
important to be there, if you decide it's important to rebuild 
Afghanistan for the stated goal to keep the terrorists out or 
keep them at bay, then you've got to give reconstruction money. 
As I told you before, without us funding Afghan Government, it 
will cease to exist.
    Mr. Amash. Thank you. I'll yield back.
    Mr. Lynch. I thank the gentleman, and I appreciate his warm 
remarks regarding Walter Jones, who did some wonderful work on 
this committee. He was a dear friend to many of us.
    The chair now recognizes the gentleman from California, Mr. 
Rouda, for five minutes.
    Mr. Rouda. Thank you, Mr. Chairman.
    Thank you, Mr. Sopko, for joining us today and your 
testimony. My line of questioning will be similar to my 
colleague from Michigan.
    I'd note that Afghanistan is widely ranked as one of the 
most corrupt nations in the world, with a score of 16 out of 
100, with zero being bad and highly corrupt. Would you agree 
with that statement and that observation?
    Mr. Sopko. Absolutely.
    Mr. Rouda. I'm trying to get a sense of how much money is 
being wasted with the fraud and corruption. And appropriated 
for this year's $5 billion, a similar number in 2018, and you 
talked about billions of dollars being lost to fraud and 
corruption, yet we don't have a firm percentage. But it seems 
like you could probably make a guesstimate, and I guess that's 
what I'm asking you to do.
    If you had to guess based on all the information you have, 
your best educated guess, are we losing 25 percent to fraud and 
corruption, 40 percent, 50 percent, more? I mean, for every 
dollar we put in there, what do you expect is being lost?
    Mr. Sopko. Again, I don't mean to dodge the question. It's 
difficult. The best I can say is we took a look at all of the 
audits and inspections and investigations we did, which isn't 
the total, isn't the 132. I was actually looking for the 
number. I can't find it before me. But when we looked at that 
number, we then did an assessment how much of that was waste, 
fraud or abuse. I believe we came up with about the figure of--
was it 35 percent?--about 30 percent we could identify as 
waste, fraud, or abuse. So that doesn't specifically talk about 
corruption, but we came up with that number.
    So we looked at 766 audits, investigations, or inspections 
we had done which covered $52 billion of the $132 billion. So 
we were very conservative. We didn't look at anything we didn't 
audit. With that number, we found that up to $15 billion of the 
$52 billion, and this gets a little complicated, had been lost 
to waste, fraud, and abuse.
    Mr. Rouda. So about 30 percent.
    Mr. Sopko. About 30 percent. So that's--I would say it's a 
safe number. Now, some of my auditors may say that doesn't meet 
GAGAS, which is Generally Accepted Government Auditing 
Standards, but I think that's a fair assessment.
    Mr. Rouda. Do you have any evidence or opinion as to, of 
that 30 percent, what is falling into enemies' hands?
    Mr. Sopko. Not out of that audit, but other experts have 
said publicly, and I think the military, about 30 percent of 
the Taliban's money comes from either taxes on businessmen or 
from theft themselves. But I think it's a pretty safe guess 
that if you're stealing money from us, you're probably kicking 
a percentage back to the Taliban or whoever the local terrorist 
group is. But I can't say for sure. We haven't looked at it.
    Mr. Rouda. In looking at, I think it was touched on, the 
anti-corruption processes that Afghanistan has attempted to put 
in place, how would you characterize the success so far?
    Mr. Sopko. Very mixed. We are still troubled by that. In 
every corollary report, we report on it. They did create an 
anti-corruption justice center where they were supposed to vet 
the police and the prosecutors. From the beginning, they didn't 
vet them. By vet them means they polygraphed them. Well, it 
turned out they polygraphed them but they never fired them, so 
what was the use of polygraphing them?
    They have a real problem issuing warrants and executing 
arrest warrants and search warrants on the big fish, and we've 
identified that. Actually, I've gotten into a very public spat 
with the Afghan Attorney General on his inadequacy in enforcing 
subpoenas or arrest warrants, et cetera.
    So it's mixed. But I will say it's better than the prior 
regime. So you do have a willing partner to some extent. So I 
don't want to paint it totally black.
    This isn't California. This isn't--well, you know where 
it's just above? North Korea and Somalia.
    Mr. Rouda. Well, and I know there's many partners in this 
process within the Afghan Government, I'm sure some do better 
than others.
    Finally, can you just maybe share us one or two examples of 
the significant fraud and corruption that you have seen?
    Mr. Sopko. Well, I think that the two biggest examples I 
talked about, fuel. One of the examples we identified early on 
was not just stealing it, which is massive, but actually 
sitting down and controlling the contracts which would cost the 
U.S. taxpayer $250 million on one contract. That's one.
    The other one is ghosts. We are still finding ghosts. And 
by that I mean not spectral ghosts. I'm talking about we're 
paying the salaries of policemen who don't exist. Somebody is 
pocketing their salary. We've still got loopholes.
    So we're working very closely with CSTC-A, my audit team, 
my investigative team, and CSTC-A, which is the military group 
that pays for all of this, trying to identify current holes in 
the system. So I would say the ghosts and the fuel are two 
things.
    Mr. Rouda. Ghosts and gas.
    Mr. Sopko. Ghosts and gas.
    Mr. Rouda. Okay. I yield back. Thank you.
    Mr. Lynch. The gentleman yields back.
    The chair now recognizes the gentleman from Arizona, Mr. 
Gosar, for five minutes.
    Mr. Gosar. Thank you, Mr. Chairman.
    Mr. Sopko, first of all, thank you for what you're doing. 
It's a tough job in a dangerous part of the world, and when you 
go back to your staff, please give them our thanks.
    But I want to come back to this. As a business owner, we 
try to position our employees for success. Just the colloquy 
and questions that I'm hearing from the other members really 
brings us back to the home base, is that there are too many 
variables here to actually get success, is what it seems to me.
    You know, the two countries are diametrically different. 
Would you agree with that.
    Mr. Sopko. The U.S. and Afghanistan? Yes, to a great 
extent, you're right. You're absolutely correct.
    Mr. Gosar. Yes. And their history is very different, isn't 
it?
    Mr. Sopko. Absolutely.
    Mr. Gosar. So to think that our solutions actually can 
benefit or actually be forced upon them seems pretty ludicrous 
to me.
    Mr. Sopko. Well, now you're getting into policy, sir.
    Mr. Gosar. I understand.
    Mr. Sopko. I'm going to dodge that one.
    Mr. Gosar. I understand, but there's a fine line here, and 
we have to think about, you know, I hear losing X amount of 
dollars in gas, we have these ghost people that we're paying 
for.
    You know, the American public is really frustrated. I want 
to give them a solution that says, ``Hey, listen, we looked at 
this through the big lens and we put you in a position of 
success.'' And I don't think we do that, you know, when you're 
talking to me that you can't track funds through United 
Nations, through the World Bank.
    It seems to me like there's a lot of different heads here 
without a central--how do I say this?--dispensing. Would you 
agree to that?
    Mr. Sopko. I agree. Yes.
    Mr. Gosar. How could we better maybe look at those 
diametrics? What could Congress do that could facilitate 
something better for success? I mean, instead of having to 
answer this, that, and everything, why not choreograph it if 
it's our money and the bulk of our money is going to this 
reconstitution and rebuilding? Why don't we be the fish that 
dictates everything?
    Mr. Sopko. I don't know if this is the answer, sir, but 
when I first started this job I had the same frustration you 
did back in 2012, 2013. I couldn't believe this. I mean, I did 
organized crime in the United States, and I was thinking this 
is ridiculous. I oversaw some big programs for Senator Nunn, 
and I had never seen anything as crazy as what was going on in 
Afghanistan.
    So I said, what--we hadn't done the lessons learned. We've 
done five lessons-learned reports on various subjects. But I 
said, what does this all mean? We came up with seven questions, 
and it actually was, I think, one of the appropriations bills. 
They took that seven questions and they posed them.
    I would start with the seven questions we asked, and that 
was, does the project or program, even before you start it, 
does it support our mission? If it does, it's more likely to 
succeed in Afghanistan than fail. Do the Afghans even know 
about the program and want it? If they don't, it's going to 
fail more likely, and it's more likely to succeed.
    So you go down this list. Does it consider where we're 
working, that there's major corruption? And if it doesn't--and 
you can design a program, just like you as a businessman, if 
you're in a bad area, you know how to design a program that 
protects it from theft and corruption. Well, we're designing 
programs like they're in Kansas or in Norway. It was 
ridiculous.
    One of the other things is, does it have metrics for 
success? We are spending money, and we didn't even know--first 
of all, as I told one of the Congressmen, we don't even have a 
list of all the programs in Afghanistan. So how do we know if 
any of them are succeeding?
    And you remember, Mr. Chairman, I got into an actual--I 
won't say fight--a serious discussion with a senior official 
from USAID about racking and stacking programs in USAID. He 
turned on me, saying: The audacity of Mr. Sopko to want me to 
list which programs are working and which ones are failing. 
It's almost like picking your favorite child.
    I just stopped for second. I mean, I never thought 
development aid was sort of the Sophie's Choice that we had to 
pick. I mean, doesn't it make sense as a businessman?
    Mr. Gosar. Oh, yes.
    Mr. Sopko. If this product is not working, why are you 
using it? Now, if you have unlimited money, like we did back 
then, it's okay just to waste money, I suppose.
    Mr. Gosar. Well, we didn't have.
    Mr. Sopko. We didn't.
    Mr. Gosar. I'm sorry. A limited pot.
    Mr. Sopko. We're lowering it. So if you don't rack and 
stack--and I must say, and I don't want to attack USAID, the 
new Administrator, who is one of your former colleagues, 
Congressman Green, is racking and stacking programs right now, 
and that's a tremendous success. I think it's because of a 
committee like this and the full committee who have been 
holding their feet to the fire.
    But those are the things I think may help to answer your 
question. I'm saying that because I can't tell you what the 
policy should be, because that's as far--I can only tell you, 
if this is your policy, I can talk about the process, is it 
failing or succeeding. And those seven questions I talked about 
help us get there.
    Mr. Gosar. Well, Mr. Chairman, the real quick answer is in 
reverse, it should be back and forth, that they do not match 
what your policy is. If what you're telling me is what you're 
showing me, they don't match.
    Mr. Sopko. Mr. Chairman, can I just answer real shortly?
    Mr. Lynch. Yes. Way over time, but go ahead.
    Mr. Sopko. Okay. Real quickly.
    We see that problem right now, and we've seen it before. 
We're now doing a review, the State Department is, of the 
number of personnel they should have in Afghanistan before they 
know what our program should be and what's our policy. Isn't 
that putting the cart before the horse?
    Normally good businessmen would find out what you're 
selling or what's your program, then determine how much staff. 
What we're doing--and we did it before, so I'm not blaming this 
administration, the prior administration did it, too--here is 
your staff, you figure a program that fits.
    Now, as an auditor, that's something backward, and I can't 
say it in public.
    Mr. Lynch. I appreciate that. The gentleman's time has 
expired.
    The chair now recognizes the gentleman from Texas, Mr. 
Cloud, for five minutes.
    Mr. Cloud. Thank you very much for being here. Thank you 
for your thoughts. I can't help but think and share in a sense 
the frustration that while we talk about budget matters, a lot 
of this seems to go beyond that, in the fact that our wonderful 
form of government was birthed out of a Constitution that was 
birthed out of a revolution that was birthed out of a people 
that were ready for self-governance.
    It makes me wonder if our efforts are a little misguided in 
that we are trying to force self-governance on a people that 
may or may not be ready. I don't have the answers to that, but 
I think that's one of the underlying questions that goes beyond 
the scope, I realize, of today's meeting. But I appreciate it.
    Your work is certainly quite critical considering the $132 
billion that's been appropriated since 2002 for Afghanistan 
reconstruction.
    I wanted to see if I have unanimous consent to enter into 
the record your report titled--and it summarizes the findings, 
so I appreciate that--``U.S.-Based Training for Afghanistan 
Security Personnel: Trainees Who go Absent Without Leave Hurt 
Readiness, and May Create Security Risks.'' It's a long title, 
but it pretty much sums it up.
    Mr. Lynch. Without objection, so ordered
    Mr. Cloud. Thank you.
    Mr. Lynch. I'm sorry. Without objection, so ordered.
    Mr. Cloud. I appreciate it, Mr. Chairman.
    Your report noted that 152 of the 324 military trainees 
that went AWOL while training in the United States since 2005 
are from Afghanistan. I believe it's almost 50 percent of 
Afghan trainees go missing.
    Mr. Sopko. That is correct, sir.
    Mr. Cloud. A number of those, about a third of those, I 
think 56 of them, went AWOL from Lackland Air Force Base, which 
is about an hour from my district. Do we have any idea where 
those individuals are, where their whereabouts are, what 
they're up to?
    Mr. Sopko. No, sir.
    Mr. Cloud. We do not. Okay.
    Given the troubles and insecurities we have with this 
program, if the DOD were to eliminate it, is that something, 
based on the merits and effectiveness of the program, that you 
think might be warranted?
    Mr. Sopko. I don't believe I can answer that totally. I 
think you would have to talk to DOD whether that would be 
counterproductive. I know they're concerned about the AWOLs. 
But some of this training is very significant.
    Mr. Cloud. How do we know that we're not training the next 
Osama bin Laden, in a sense, that we funded him and supported 
him before?
    Mr. Sopko. Yes. I think, again, our report didn't look at 
that, but that's a good question, what type of vetting we're 
doing. And we did raise concerns about the vetting on that.
    In particular, one of the issues I know the ranking member 
has raised before is a simple thing about interviewing all of 
the people that come here for training, and the State 
Department still refuses to do that. They won't do an interview 
for these people coming over even though they interview 
everyone else in Afghanistan who gets a visa. They refuse to do 
it.
    Mr. Cloud. Wow. Do we have any sort of sense as to why 
trainees are going AWOL? Is it for opportunity? Is it they're 
just wanting to blend in? Or do we have any threads, any bread 
crumbs?
    Mr. Sopko. Well, we had some, and we reported it in that 
report back in 2017. Of course, some of these people 
disappeared, we can't find.
    But we did interview some of them, and some left because 
the security situation was going bad back there and they didn't 
want to go back and get hurt or killed. Some were upset because 
they found out that even though they're trained, let's say, to 
be a pilot or mechanic, when they went back, if they wanted do 
get a job in the military as a pilot or mechanic, they would 
have to pay a bribe, and they refused, and they said forget it.
    And some, just it's a better life here. And some of the 
AWOLs that we were able to track down from talking to DHS were 
actually en route to Canada. So this was get out here, and then 
you can make it to Canada.
    Mr. Cloud. Just want to freeboard, basically.
    Mr. Sopko. Well, that could be or----
    Mr. Cloud. Travel.
    Mr. Sopko. Yes.
    Mr. Cloud. Okay.
    Pivoting to the Afghan National Police, the High-Risk List 
identifies them as currently lacking the capability to defend 
the rule of law and provide static local level security 
nationwide in part because of the focus on reconstructing the 
Afghan National Army.
    What further actions are needed from the U.S. to ensure 
that the Afghan National Police is well prepared to address the 
country's civil policing needs?
    Mr. Sopko. Well, we issued an entire High-Risk List--I 
mean, excuse me--lessons-learned report looking at that.
    But the key point is we have the wrong people training the 
police. The military are great at training military. They are 
not too great at training police. So you really need to get 
over the right people to train the police.
    What we found is there are some reserve units that are made 
up of police. And those reserve units, when they're assigned to 
that task, do an excellent job. And there are also some other 
countries that do an excellent job in training police in these 
areas. But the way our system--so the simply answer is we're 
not bringing over the right people to train the police, and 
we're not really spending the time and effort on that, which is 
unfortunate.
    Mr. Cloud. Thank you very much.
    Mr. Sopko. You're welcome, sir.
    Mr. Lynch. The gentleman's time has expired.
    The chair now recognizes the gentleman from Tennessee, Mr. 
Green, for five minutes.
    Mr. Green. Thank you, Mr. Chairman, Ranking Member.
    It's not the Mark Green that's USAID, although I get all 
his Google alerts, and I'm sure he gets all mine, which is 
worse for him than for me.
    Just be very quick, I've got a couple of questions, and 
that's it.
    I'm sure you've been to Afghanistan many times.
    Mr. Sopko. Yes. About four times a year.
    Mr. Green. It's a beautiful place. It's been a long time 
since I was there. But when I think of the potential of 
securing that place and creating tourism as an industry for 
them, I just see lots of potential. It is a beautiful place, 
from my memory, from 2004-2005 timeframe.
    But the UH-60's that we've been shipping over there, can 
you kind of elaborate on where we are on that issue? It just 
seems like we didn't put a lot of control measures in place 
when we started that program. If you could kind of tell us 
where we are on that, I'd greatly appreciate it.
    Mr. Sopko. The UH-60 program, obviously our purpose was to 
get about 160 Black Hawks, UH-60's over there.
    What we identified, the big problem there is the UH-60's 
are getting there on time, but the problem is with the pilot 
training, mechanic training, and sustainability.
    So we raised the concern that why ship those very expensive 
pieces of hardware over there if you don't have the pilots or 
mechanics to use them, particularly if something happens. So 
you're going to have just wonderful UH-60's sitting if there's 
a problem with the government.
    I mean, initially we promised to train 477 pilots. That was 
reduced to 398; 398 then was reduced to 357. It's now down to 
320. We don't see any major change to that. I think it's a 
problem with getting the pilots trained. English language is 
the biggest issue, to an extent.
    So we're not attacking the platform. It's a wonderful 
platform. It's an expensive platform, but it's a wonderful 
platform. But we are raising questions about whether it's going 
to succeed if you don't have the pilots and the mechanics.
    Mr. Green. These are the A models, right, the old ones that 
we have sort of mothballed, as I understand it?
    Mr. Sopko. I believe they are the A model. I don't have 
that in front of me. It is the A model.
    Mr. Green. The A model? Okay.
    Have they stopped the flow of the aircraft? Are they still 
shipping aircraft while they have no pilots?
    Mr. Sopko. I think they still are, but I'd have to check 
with my staff.
    Mr. Green. Okay. Well, that does make a lot of sense.
    Mr. Sopko. That's our understanding, but we can get back to 
you.
    Mr. Green. Will those aircraft be used in a combat service 
support role, or were they actually combat, for lifting combat 
forces into an area?
    The reason I ask is the capability of the Black Hawk at 
elevation--and the Taliban tend to operate--at least, again, 
I'm speaking from my experience, which is a little bit old--but 
they tended to function at pretty high levels. So we used our 
Chinooks in order to insert combat forces.
    So I'm wondering, are we even sending them an aircraft that 
they could use for the purposes that they want?
    Now, if they want it for combat service support, i.e., 
Medevac, resupply, okay. But what is the stated purpose for the 
aircraft when they get there? That's my question.
    Mr. Sopko. I'd have to get back to you on that.
    Mr. Green. Okay. If you wouldn't mind, just send a written, 
in an email or something.
    Mr. Sopko. I'd be happy to do that.
    Mr. Green. That's all my questions.
    Thank you for your time and for your service to our 
country.
    Mr. Sopko. Thank you.
    Mr. Lynch. I thank the gentleman. The gentleman yields 
back.
    The chair now recognizes the gentleman from Kentucky, Mr. 
Massie, for five minutes.
    Mr. Massie. Thank you, Mr. Chairman.
    Thank you Mr. Sopko.
    I've quit preparing for these hearings, because this is 
like ``Groundhog Day.'' I show up every 18 months and ask the 
same questions and we get the same answers, but the numbers are 
bigger every time I ask the question.
    In 2015, I asked you how much we spent on reconstruction--
which, by the way, I think--I'd like to change the name, your 
title of your job, change reconstruction to nation building, 
because I don't think people understand that's what we're 
tracking, is our effectiveness at nation building.
    But in 2015 I asked you, and it was $113 billion that we 
had spent cumulative. In 2017, I think it was September 2017, I 
asked you, it was $121 billion we spent.
    Can you tell me here today in 2019 how much have we spent 
on reconstructing Afghanistan?
    Mr. Sopko. Well, Congress has appropriated? $132.3 billion. 
So we're up to that, sir.
    Mr. Massie. Okay, 0.3. You always give me the decimal point 
afterwards. I appreciate that level of detail.
    Mr. Sopko. But to qualify that, and I know you are an 
expert on numbers here, but we still have $10.8 billion in the 
pipeline.
    Mr. Massie. Well, what are we waiting on? Let's spend it.
    Mr. Sopko. I will send that message immediately back to----
    Mr. Massie. Please don't. Please don't.
    One of the big misconceptions--so let's get rid of that 
misconception, that we're not nation building in Afghanistan. 
We are nation building in Afghanistan on steroids, okay, to 
what effect, I'm not sure.
    But another misconception that I hear is that if we pull 
out of Afghanistan, the Taliban will come back. Have the 
Taliban left? How many Taliban are in Afghanistan kicking and, 
you know?
    Mr. Sopko. Our best estimate, and this comes from the 
military, is approximately 60,000 Taliban are active. That's 
not including the other terrorists, but Taliban.
    Mr. Massie. Sixty thousand Taliban in Afghanistan.
    Mr. Sopko. That's correct.
    Mr. Massie. So this notion that we've routed them and 
they're all gone and if we leave they might come back, that 
sounds a little dubious to me if there are 60,000 of them still 
there.
    I wasn't asking for an answer on that.
    Mr. Sopko. Congressman, that's a tough question.
    Mr. Massie. Yes, a tough question. I ask it every 18 
months.
    Mr. Sopko. I know.
    Mr. Massie. We get the same tough answers.
    Another question is on the war on drugs that we're 
conducting over there. Every time you come I ask, how much have 
we spent eradicating poppy? And then I ask, how much poppy are 
they making or to what effect have our eradication efforts been 
effective?
    Mr. Sopko. Our eradication has absolutely had no effect on 
the amount of poppy being produced. We said that, and I think 
we briefed you or your staff when we came out with this 
lessons-learned report on narcotics.
    As a matter of fact, none of our programs, not one, has 
been effective in Afghanistan on fighting narcotics.
    Mr. Massie. So what's the price tag so far cumulative since 
we started that effort?
    Mr. Sopko. Well, the only good news, I think, sir, is we're 
spending a lot less on counternarcotics than we did before, so 
for you. I think it's about $9 billion--am I correct?--$9 
billion we've spent on counternarcotics.
    Mr. Massie. Nine billion. And do they produce more poppy 
now than they did 10 years ago or whenever?
    Mr. Sopko. Oh, absolutely. It's the only growth crop there 
is.
    Mr. Massie. And what percent of their GDP does opium and 
poppy products----
    Mr. Sopko. I think the estimate--and this is kind of 
squishy, because they don't file tax returns, so it's kind of 
difficult. And there are no, really--GDP, I think it's 
approximately 30 percent.
    Am I correct?
    Yes, I would have to get back to you. It's about 30 
percent.
    It's the largest cash crop. I believe it's about 30 percent 
of the GDP. And the thing you also is the new data, which I 
think you should make certain you ask me again, is that we've 
had a lot----
    Mr. Massie. Don't worry. I'm afraid I'm going to be here in 
18 months asking the same questions. That's my fear.
    Mr. Sopko. I'm afraid I may be too. So, anyway, we always--
--
    Mr. Massie. I do hope you keep your job, though. I know 
there's a lot of people that don't want you to have this job 
because you are putting daylight on this issue and to good 
effect. We've had good results. I mean, I think, like you were 
saying, they've reduced the money wasted on this poppy program, 
haven't they?
    Mr. Sopko. Yes. Yes.
    Mr. Massie. When I say they, I'm talking about Congress. 
But we just sort of rubber stamp whatever comes over here 
without the data.
    Mr. Sopko. But, sir, real quickly is that the amount of 
interdiction that we have done over the last 10 years, and 
we've done a lot of interdiction, it's still only equal to less 
than five percent of what was produced in 2017. So you take all 
the interdiction we did over the last 10 years, and you will 
see happy talk coming out of Afghanistan--oh, we just caught 
this other lab, we just blew up this lab, we just--well, you 
add it all up for 10 years, my staff did that, and it's equal 
to less than five percent of the 2017 crop.
    Now, the 2017 crop decreased to 2018. That's good news. But 
everyone admits it has nothing to do with our programs. It's 
because of drought.
    Mr. Massie. Drought. Okay. Well, maybe global climate 
change, that's one positive effect in Afghanistan.
    I appreciate your candor on this issue. I'm just 
disappointed that we're here asking the same questions.
    Thank you, Chairman Lynch, for having this hearing. It 
needs to happen even if we don't like the answers.
    Thank you.
    Mr. Lynch. I understand. I appreciate the gentleman's 
diligence on this, and I share his frustration.
    I would suggest, however, that we have the power to change 
things. And I just want to point out that the tendency over the 
last few years is to give Congress less and less information so 
that we don't expose the inadequacies, the vulnerabilities, and 
the mission failure that we see, and the inconsistencies. So it 
could be different.
    I'm going to yield myself five minutes, because I've got so 
more questions, and I share that with all of our colleagues. If 
they want to ask more questions, you get another five minutes.
    But they've now changed the metrics. I've been to 
Afghanistan a lot. I think it's 15 times, something like that. 
I've been all over. And normally we would get maps from you 
that would show the areas and the provinces and portions of the 
provinces that were under the control of the government in 
Kabul. Then they would show areas that were contested that the 
government was fighting with the Taliban. And then they would 
show Taliban territory, usually down around the southern end of 
Helmand Province, Kandahar Province, and parts of Nangarhar 
Province where the Haqqani Network is working it.
    Now they've changed the metric. They're no longer 
publishing those reports, and they changed the metric from 
territory under Taliban control and government control, they've 
changed the metric to willingness of the Afghan Government to 
fight.
    Now, how do you measure--you're the one that's got to use 
this metric, I guess. I mean, I know miles or square 
kilometers, that's subjective. It's either under control or not 
under control. When we would go on to codels and ask to go to 
Lashkargah, and they would say, ``You can't go there, there's 
too much kinetic activity,'' we would know that, okay, that 
area is contested, at least, if not under Taliban control. Now 
it's a real mystery how we are supposed to determine how we're 
doing territorially.
    So, Mr. Sopko, how do you use a metric like Afghan 
willingness to fight?
    Mr. Sopko. It's even worse, Mr. Chairman, than that, that 
now they're saying--you're absolutely correct. We no longer 
will be publishing the district control and population control, 
because our military says they're no longer collecting that 
data.
    Mr. Lynch. Under General Petraeus, under McChrystal, under 
everyone who was in command over there, Hammond, they used to 
say that is the metric. That is whether we know we're doing our 
job, whether we're making progress.
    Mr. Sopko. You're absolutely correct. As a matter of fact, 
in 2017, which I think is the last time--or one of the times I 
testified here--I said that the goal that our military said was 
that the Afghans would control 80 percent of the territory of 
their country by 2019. Now, that was the goal. That was the 
stated goal.
    What we were just told is that's no longer a goal. It's 
even more squishy, Mr. Chairman, than what you're saying is. 
The goal now is stalemate is good because stalemate will lead 
to peace.
    Mr. Lynch. What's stalemate at, though? What's the 
territorial split? Can you say that?
    Mr. Sopko. Last data we had, I think from our last 
quarterly report----
    Mr. Lynch. Like 60.
    Mr. Sopko. About 65 percent of the population and 56 
percent of the districts. So the Afghans controlled 65 percent 
of the population and 56 percent of the districts. That's down 
from 2018 when it was a lot higher.
    Mr. Lynch. All right. I have another question.
    Mr. Sopko. Certainly.
    Mr. Lynch. I want to jump to another topic, and I 
apologize.
    Okay, so we have a situation where we're trying to beef up 
the Afghan National Army. This includes the provision of 
uniforms and equipment for ANSF, right? And in June you 
released a report that examined the cost of the U.S. Government 
providing Afghan security forces with proprietary forest 
camouflaged pattern owned by HyperStealth Biotechnology 
Corporation, and that was between November 8 and January 2017.
    So I'm just--I've been to Afghanistan a bunch, right? What 
percentage of Afghan--maybe I'm missing it? Is there a forest? 
Because they've chosen--if this is the--sort of the options 
here. They've chosen this one over here, which is a dark green. 
This is the HyperStealth Spec4ce Forest. That's what they're 
picking out for the Afghan National Army. Most of the territory 
I've been to looks like this, like Helmand Province.
    Mr. Sopko. You're absolutely correct. That's what we 
highlighted. This was the worst uniform to pick and it was the 
highest cost.
    Mr. Lynch. The most expensive, right?
    Mr. Sopko. What's that? Excuse me, sir?
    Mr. Lynch. Most expensive.
    Mr. Sopko. Most expensive.
    And only two percent of Afghanistan is forest.
    This goes back to the good work that Congress can do. 
Congress put into the law: DOD, go do a real assessment. They 
did. That's the assessment we referred to. They agreed totally 
with our findings and that this was the most expensive and the 
least effective.
    What's the bad news is it turns out the Afghans now are 
buying the second most expensive and the second worst, another 
green one. It's right next to the one you identified.
    Mr. Lynch. It's even greener, yes.
    Mr. Sopko. We don't----
    Mr. Lynch. Really want to stand out.
    Mr. Sopko. Oh, yes. I mean, it's--I hate to be an Afghan 
soldier wearing that uniform. It's sort of like ``shoot me'' 
written on the back.
    We don't know why. And, unfortunately, when you don't know 
why in Afghanistan, you assume there's a bribe.
    Mr. Lynch. Yes.
    Mr. Sopko. That's all you can assume. But they are going to 
use their money to pay for it, so we may have to wash our hands 
of it for these uniforms.
    Mr. Lynch. Yes. All right. I am way over on my time. I 
apologize to my colleagues.
    I yield to the gentleman from Georgia, Mr. Hice, for five 
minutes.
    Mr. Hice. Thank you, Mr. Chairman. I appreciate your 
leniency with everyone.
    Real quickly, the AWOL. Is there any information regarding 
where the problem seems to be worse than other places? Is it 
certain training areas? Certain tasks?
    Mr. Sopko. Yes. That's a very good point, because I know 
one of the bases is close to you, and your colleague, one of 
the bases.
    Texas was the problem. The Air Force did a wonderful job at 
Moody Air Force Base. I think it's because they spent the time 
and effort and they focused and they mentored. We've 
highlighted the Moody Air Force Base and the Air Force program 
for training, because they put mentors and followed the Afghans 
back to Afghanistan, they brought them back, and it was a 
fantastic program. We highlight that in our lessons-learned 
report.
    So Georgia was one of the best programs out there.
    Mr. Hice. Okay. But the Air Force in general, really.
    Mr. Sopko. Well, it sounds like somebody who served in 
Europe. I can't say for sure, but I can say in this instance--
--
    Mr. Hice. But, no, it is an important issue, because to get 
to the heart of the problem we've got to know where the problem 
seems to be the worst. And at that point, maybe we can start 
finding some answers.
    All right. Shifting gears, waste, fraud, abuse, that kind 
of stuff. There's gazillions, or whatever, of tons of taxpayer 
money going directly from the U.S. to the Afghan Government, 
correct?
    Mr. Sopko. That's correct.
    Mr. Hice. Okay. Any idea how much?
    Mr. Sopko. Of on-budget assistance, I think I will have to 
get back to you. I don't have those numbers exactly.
    Mr. Hice. Okay. If you would get back. It's a lot, though. 
Is that correct?
    Mr. Sopko. Yes.
    Mr. Hice. Okay. So are we tracking that? Do we have 
accountability oversight of that? I know oversight is a problem 
in this whole. Is there any oversight over the money going 
directly to the Afghan Government?
    Mr. Sopko. Very little.
    Mr. Hice. Very little.
    Mr. Sopko. As I said before, the agencies basically wipe 
their hands of it and say: That's the Afghan's problem, not 
ours. We've actually had our auditors being told that: Oh, we 
gave it to the Afghans, we don't--it's not our----
    Mr. Hice. All right. So it's the old check the box. We did 
what we're supposed to do. Now we're done with it. We're not 
even going to look.
    Okay. This highlights a whole lot more that we could go 
into.
    Let's go to the day after. You mentioned that a number of 
times. All right. So the day after would be the day after a 
peace deal is made. All right? So let's just go there 
hypothetically.
    So the day after comes, our troops come home. How would 
that affect our oversight of money going to the Afghan 
Government? I mean, it's bad now. Or could it get worse?
    Mr. Sopko. It could get worse unless the security is 
provided by some other organization that we trust. In this 
case, if all of our military came home, then you would have to 
boost up the security provided by the State Department security 
detail.
    Mr. Hice. Right.
    Mr. Sopko. Those were the people who were guarding me.
    Mr. Hice. Yes. That's a good point. If our troops come 
home, then the risk of that escalates dramatically, I'm sure.
    All right. Then on a scale of one to 10, how important is 
it for us to continue supporting the Afghan Government?
    Mr. Sopko. Well, again, if we don't support them with money 
and with the military in all likelihood the Afghan Government 
will lose their fight against a terrorist group, whether it's 
the Taliban, ISIS, or the other 20-some----
    Mr. Hice. Which that precisely brings me to my last 
question on this. I mean, all you of this--it's like this is a 
mess that's created that is a darned if you do, darned if you 
don't kind of a scenario. We're giving money to the Afghan 
Government. We don't know what they're doing with it. We've 
checked the box. We gave it to them. Now we have no oversight.
    If we get a peace deal, the day after it gets even worse. 
That money now may be going to places we don't want it to go. 
On the day after as well, the Taliban now has a seat at the 
table.
    Mr. Sopko. That is a problem.
    Mr. Hice. So how does that affect our efforts there or the 
absence of our presence there?
    Mr. Sopko. We don't know. We're just highlighting. That's 
the exact point we're trying to highlight. What is the role of 
the Taliban going to be on counternarcotics, since they're 
involved in the narcotics industry; on protecting women's 
rights, since we know what their history was with women; in 
fighting corruption, since they are part of the corrupt 
influence; and in security?
    So are you going to have to merge the Afghan National 
Security Force with people they've been shooting at for the 
last 10 years? It could happen. It may be successful, but we're 
just saying that's a risk.
    So Congress, the executive branch, everybody should take a 
look and plan ahead and do oversight like you're doing now.
    This report is not only a call of concern, but it gives you 
a road map for doing oversight. I hope committees, all the 
committees, particularly this one, because this committee has a 
whole-of-government capability and jurisdiction, will follow 
the road map we've given you.
    Mr. Hice. I just, again, thank you for the incredible work 
you've done. You have given a road map.
    Again, Mr. Chairman, thank you to you for having this 
hearing. I think one of the best things we can do is continue 
highlighting these problems and bringing people here who are 
involved in the problem and who have the capacity to deal with 
it. So, both of you and your teams, thank you very much.
    And I yield back.
    Mr. Lynch. I thank the gentleman.
    Mr. Sopko, I'd like to thank you as our only witness today 
for your testimony. I want to thank your staff who's behind 
you, been whispering answers to you throughout hearing. You're 
a wise man.
    So without objection, all members will have five 
legislative days within which to submit additional written 
questions for the witness. Those will be submitted to the 
chair, which will be forwarded to the witness for his response. 
And I'll ask our witnesses to please respond as promptly as you 
are able.
    This hearing is now adjourned. Thank you.
    [Whereupon, at 3:56 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
